September 23, 1999


SYLVESTER BLACK
VICE PRESIDENT, NETWORK OPERATIONS MANAGEMENT

PATRICK R. DONAHOE
VICE PRESIDENT, ALLEGHENY AREA

J. T. WEEKER
VICE PRESIDENT, GREAT LAKES AREA

DAVID L. SOLOMON
VICE PRESIDENT, NEW YORK METRO AREA

JON M. STEELE
VICE PRESIDENT, NORTHEAST AREA

JESSE DURAZO
VICE PRESIDENT, PACIFIC AREA

SUBJECT:      Final Audit Report of Opportunities for Savings in Rail Detention Costs
              (Audit Report Number TR-AR-99-001)

The attached report presents the results of our audit of Opportunities for Savings in Rail
Detention Costs. This audit identified opportunities to reduce or possibly eliminate detention
costs by improving the reliability of trailer activity data, properly using trailers and better
tracking their movement, and consistently seeking reimbursement from mailers. We
recommended corrective actions that management had initiated during the audit to better manage
rail trailers.

Management agreed with our findings, recommendations, and potential cost savings
presented in this report. Management’s comments and our evaluation of these
comments are included in this report.
We appreciate the cooperation and courtesies provided by your staff during the audit. If
you have any questions or need additional information, please contact Debra Ritt,
Director, Transportation, at (703) 248-2198 or me at (703) 248-2300.



Richard F. Chambers
Assistant Inspector General
 for Performance

Attachment

cc:    Clarence E. Lewis, Jr.
       John E. Potter
       Office of the Deputy Postmaster General
       Alan B. Kiel
       John R. Gunnels
                                        TABLE OF CONTENTS

Part I

Executive Summary                                                      i

Part II

Introduction
      Background                                                      1
          Objectives, Scope, and Methodology                           1

Audit Results
      USPS Liability For Rail Detention                                4
                 Timeliness of Data Entry And System Updates           4
                 Rail Management Information System Access             5
                 Data Verification Practices                           6
          Recommendations                                              7
          Management’s Comments                                        8

          Significant Factors Contributing To Rail Detention           9
                 Use of Rail Trailers                                  9
                 Tracking of Trailer Location                         10
                 Availability of Information for Dispatch Decisions   10
                 Reimbursement for Mailer-Caused Detention            11
          USPS Corrective Actions                                     11
          Recommendations                                             12
          Management’s Comments                                       12
Appendix
          Appendix A – Sampling Plan and Projected Results            14
          Appendix B – Management’s Comments                          15
                              EXECUTIVE SUMMARY
Introduction              The Office of Inspector General (OIG) conducted an audit of
                          the United States Postal Service's (USPS) rail detention and
                          misuse costs because these costs increased from
                          approximately $5 million in FY 1995 to over $11 million in
                          FY 1998. Our overall objective was to identify opportunities
                          for cost savings by determining how rail trailer inventories
                          are managed and why trailers are retained significantly
                          beyond the contractual grace periods.

Results In Brief          We could not accurately determine USPS liability for rail
                          detention because Rail Management Information System
                          data on trailer activity is unreliable. At 13 of 14 facilities in
                          the five Postal Areas we visited, the Rail Management
                          Information System contained inaccurate information on
                          trailer location and dates the trailers were returned to
                          carriers. Data inaccuracies were due to:

                          •   • untimely data entry or system updates;
                          •   • restricted access to the Rail Management Information
                              System by some facilities; and
                          •   • poor data verification practices.

                          Without reliable information on rail trailer activity, USPS cannot
                          accurately assess its liability and take appropriate action to control
                          detention costs.

                          We identified several practices that contributed to the more
                          than doubling of detention and misuse costs since FY 1995.
                          These included the:
                          •   • inappropriate use of rail trailers to augment highway trailer
                              fleets and to store mail transport equipment;
                          •   • inadequate tracking of trailer location;
                          •   • unavailability of information on trailer detention status for
                              dispatch decisions; and
                          •   • inconsistency in seeking reimbursement for detention
                              caused by mailers.

                          USPS can substantially reduce or eliminate detention and misuse
                          costs, which were over $11 million in FY 1998, by addressing
                          these practices.


USPS Corrective Actions   The Vice President, Network Operations Management issued a
                  memorandum to Vice Presidents, Area Operations, on March 25,
                  1999, outlining several actions to be taken in response to issues
                  identified by our audit. If complied with, these actions should
                  address many of the issues identified in this report.

Recommendations   As a result of the audit, we recommend that the Chief
                  Operating Officer work with the Vice President, Networks
                  Operations Management and the Vice Presidents, Area
                  Operations to:

                     1. Establish milestones and action plans for achieving on-
                        time targets for entry of Rail Management Information
                        System data.

                     2. Monitor and provide feedback to facilities that do not
                        consistently meet Headquarters' expectations for on-time
                        entry of Rail Management Information System data.

                     3. Establish confirmation procedures for facilities that do not
                        have full access to the Rail Management Information
                        System to ensure that data on trailer activity is received
                        and input by the Bulk Mail Centers.

                     4. Implement standard data verification practices as close as
                        possible to the time of data entry into the Rail Management
                        Information System.

                     5. Verify FY 1998 and 1999 detention charges and submit the
                        appropriate adjustments to the St. Louis Accounting
                        Service Center for payment corrections.

                     6. Monitor steps taken by area managers in response to the
                        March 25, 1999, directive issued by the Vice President,
                        Network Operations Management.

                     7. Investigate the unloading of excess mail transport
                        equipment shipped to the Chicago Bulk Mail Center.

                     8. Emphasize with all field managers their role in ensuring
                        the proper use of mail transport equipment.


                     9. Obtain location codes in the Rail Management Information
                        System for all mailer facilities to facilitate the tracking of
                        trailers.
                     10. Identify, to the extent practical, mailer-caused detention,
                         seek reimbursement for such detention, and report amounts
                         recovered.

Summary of      Management agreed with our findings, recommendations,
Management’s    and potential cost savings presented in this report.
Comments        Management indicated that they have planned or taken
                steps to implement our recommendations. They further
                agreed with the potential cost savings discussed in the
                report. We have summarized management’s comments in
                the report and included the full text of the comments in
                Appendix B.

Evaluation of   Management's comments were responsive to our findings
Management’s    and recommendations, and the corrective actions
Comments        implemented or planned should improve the reliability of
                trailer activity data, ensure the proper use and tracking of
                trailers, and reduce or eliminate detention costs.
                                INTRODUCTION
Background           USPS contracts with eight rail carriers to move mail and
                     mail transport equipment between USPS facilities. Most
                     mail transported by rail is tendered on trailers provided by
                     the rail carriers to Bulk Mail Centers, Processing and
                     Distribution Centers, or customer facilities. USPS incurs
                     detention costs when trailers are kept beyond the time
                     periods contractually established for their return to the rail
                     carriers. Detention charges range from $25 to $200 per day
                     depending on the rail carrier, length of time the trailer is
                     detained, and the time of year.

                     USPS records and monitors detention charges through the Rail
                     Management Information System. Detention charges are
                     computed based on the dates a trailer is received and returned to
                     the rail carrier, the carrier's rate schedule, and the load status of
                     the trailer. This information is entered through computer
                     terminals at designated sites, which are primarily Bulk Mail
                     Centers. Facilities without access to the Rail Management
                     Information System either fax or phone trailer movements to the
                     Bulk Mail Center for data entry.

Objectives, Scope,   Our audit objectives were to (1) determine USPS liability for rail
and Methodology      detention, and (2) identify significant factors contributing to rail
                     detention. We limited our audit to rail detention, which represents
                     approximately 97 percent of USPS expenditures for rail detention
                     and misuse.

                     In completing our audit objectives, we visited Bulk Mail Centers
                     in five postal areas and nine Processing and Distribution Centers
                     served by the Bulk Mail Centers, that were judgmentally selected
                     as shown below:
                                                                           Processing and
                                       Bulk Mail Centers                   Distribution Centers

                                                           Allegheny Area
                                       Philadelphia                   Delaware
                                                                      Philadelphia
                                                                      South Jersey

                                                           Great Lakes Area
                                       Chicago

                                                           New York Metro Area
                                       New Jersey                    Brooklyn
                                                                     Dominic V. Daniels
                                                                     Mid-Island
                                                                     Westchester
                                                                     Western Nassau

                                                           Northeast Area
                                       Springfield

                                                           Pacific Area
                                       San Francisco                       Oakland

                                       The sites selected represent 65 percent of the total
                                       detention and misuse charges for a one-year
                                       period1[1] and the majority of trailers detained longer
                                       than 30 days, according to the Rail Management
                                       Information System.

                                       We observed operations and interviewed area
                                       Distribution Networks Office managers, facility
                                       transportation managers, and employees at the sites
                                       we visited. We also reviewed Rail Management
                                       Information System reports, local databases, policies
                                       and procedures for inventory management, and other
                                       relevant documents. To test the reliability of the Rail
                                       Management Information System, we compared
                                       system reports to trailer inventories and randomly
                                       inspected trailers to determine content. In addition,
                                       we also reviewed adjustments to FYs 1998 and 1999
                                       rail detention payments.

                                       To validate assertions made by facility managers about
1[1]
       The one-year period comprises accounting period 3, FY 1998, through accounting period 2, FY 1999.
highway trailer shortages in the Pacific and New York
Metro areas, we verified trailer movements over the seven-
week period, March 10 to April 29, 1999, using
information from the Transportation Information
Management Evaluation System.

We conducted our audit between January 1999 and July
1999 in accordance with generally accepted government
auditing standards and included tests of internal controls as
were considered necessary under the circumstances.
                                                  AUDIT RESULTS
USPS Liability For                    We could not accurately determine USPS liability for rail
Rail Detention                        detention because Rail Management Information System data on
                                      trailer activity is unreliable. At all 14 sites visited, we noted
                                      inaccuracies in system data relating to either the location of
                                      trailers or the dates trailers were returned to carriers. Data
                                      inaccuracies are attributable to untimely data entry or system
                                      updates, restricted access by some facilities to the Rail
                                      Management Information System, and poor data verification
                                      practices. Without reliable information on rail trailer activity,
                                      USPS cannot accurately assess its liability and take appropriate
                                      action to control detention costs.

                                      At all facilities in the five postal areas we visited, the Rail
                                      Management Information System contained inaccurate
                                      information on trailer location and the dates trailers were returned
                                      to carriers. For example, during January and February 1999, 205
                                      rail trailers in the New York Metro Area were reported as being in
                                      USPS custody for more than 30 days. However, we could only
                                      locate six of these trailers because the other 199 had been returned
                                      to rail carriers. In four postal areas,2[2] we also observed trailers in
                                      facility lots that were either not recorded in the Rail Management
                                      Information System or whose location was incorrectly reported.

Timeliness Of Data Entry              Rail Management Information System data entry and system
And System Updates                    updates were not being performed timely to maintain accurate and
                                      complete data for use as a management tool. According to a
                                      USPS Headquarters memorandum, facilities are expected to enter
                                      at least 90 percent of rail activity data within four hours of the
                                      activity. While two of the Bulk Mail Center service areas
                                      measured3[3] came close to this target, none of the five we visited
                                      achieved this in the first quarter of FY 1999, as indicated below.




2[2]
       Allegheny, Great Lakes, New York Metro, and Pacific Areas.
3[3]
       Headquarters measures on-time input by Bulk Mail Center service area and not by individual facility.
                                                            Bulk Mail Center On-Time Entry



                                    90%


                                    80%


                                    70%


                                    60%


                                    50%
                                                                                          87.9%          88.9%
                                    40%
                                                                         78.8%
                                                         72.0%
                                             59.5%
                                    30%


                                    20%


                                    10%


                                     0%
                                          New Jersey   Chicago       Philadelphia     Springfield   San Francisco


                                 First Three Quarters of Fiscal Year 1999 Average On-Time Input
                                 At Bulk Mail Center Service Areas We Visited

                                 The two Bulk Mail Center service areas with the highest scores
                                 (Springfield and San Francisco) each had a person dedicated to
                                 monitor the system, obtain needed data, and make appropriate
                                 updates. The other three service areas (New Jersey, Chicago, and
                                 Philadelphia) did not provide the same dedicated oversight of
                                 system data entry. Although Headquarters sends weekly
                                 performance reports of on-time input to all the service centers, the
                                 inaccessibility of the Rail Management Information System to
                                 some facilities continues to delay data entry.

                                 For USPS to control its detention costs, it must have reliable
                                 information upon which to manage its trailer inventory. That is,
                                 trailer activity must be promptly and accurately recorded in the
                                 Rail Management Information System if the system is to maintain
                                 its value for controlling operations and making decisions.

Rail Management                  Interviews with facility transportation officials disclosed that not
Information System               all facilities have access to the Rail Management Information
Access                           System. Of the 14 facilities we visited, 2 had no
                                 access,4[4] 3 had inquiry capability only,5[5] while 9 had full access
                                 for system input.6[6] The facilities with no access or only inquiry
                                 capability, telephone or fax rail information to the servicing Bulk
                                 Mail Center for data entry. However, we noted that no
                                 confirmation was made to ensure the Bulk Mail Center received
                                 the data and updated the system. Although officials could query
4[4]
     The two facilities with no system access, the Westchester and Western Nassau Processing and Distribution
Centers, do not routinely receive rail trailers.
5[5]
     Brooklyn, Mid-Island, and Philadelphia Processing and Distribution Centers.
6[6]
     Chicago, New Jersey, Philadelphia, San Francisco, and Springfield Bulk Mail Centers; Dominic V. Daniels,
Oakland, South Jersey, and Wilmington Processing and Distribution Centers.
                                   the system and confirm information had been received, our audit
                                   confirmed that such queries were not being made. Without
                                   confirmation of data receipt and entry, it is likely that Bulk Mail
                                   Centers are not receiving all information on rail activity or quickly
                                   entering data into the Rail Management Information System.

                                   Transportation officials who dispatch trailers need data as close to
                                   real time as possible. The absence of direct access to the Rail
                                   Management Information System has diminished the integrity and
                                   usefulness of the system in evaluating rail detention liability and
                                   managing trailer inventory.

Data Verification                  Our review also disclosed that the lack of standard data
Practices                          verification practices at facilities visited provides no assurance
                                   that Rail Management Information System data is accurate. Bulk
                                   Mail Center staff receive weekly detention cost reports for all
                                   facilities in their area, and are expected to verify the accuracy of
                                   these reports by comparing them to local records of trailer
                                   dispatches. Any adjustments to these costs should be quickly
                                   reported to the St. Louis Accounting Service Center so that USPS
                                   pays the carriers only for detention owed.

                                   Our audit revealed that if Rail Management Information System
                                   data is verified, it is done at time of payment instead of at data
                                   entry. For example, three7[7] of the five Bulk Mail Centers we
                                   visited review Rail Management Information System data after
                                   the trailers are returned to carriers. Of the remaining two Bulk
                                   Mail Centers, one8[8] had not verified data for over a year, and the
                                   other9[9] only verifies detention costs over $10,000 per trailer.

                                   While this process verifies data related to contract payments, it
                                   does nothing to ensure data on existing trailer
                                   inventory is accurate. Moreover, it does not provide the kind of
                                   information needed by facilities to manage their trailer inventories
                                   in a dynamic operating environment.

                                   Because standard data verification practices do not exist, USPS is
                                   likely being overcharged for rail detention. While we did not
                                   determine the amount of these overcharges, our audit disclosed
                                   that facilities that routinely verify the accuracy of Rail
                                   Management Information System data avoid a significant amount
                                   of overcharges. For example, during the first quarter of FY 1999,
                                   these facilities identified overcharges of $855,695, a savings of 28

7[7]
     Chicago, Philadelphia, and Springfield Bulk Mail Centers.
8[8]
     San Francisco Bulk Mail Center.
9[9]
     New Jersey International and Bulk Mail Center.
                  percent of total detention and misuse charges during that period.

Recommendations   The Chief Operating Officer should work with the Vice
                  President, Network Operations Management and the Vice
                  Presidents, Area Operations to:

                  1. 1. Establish milestones and action plans for achieving
                     on-time targets for entry to the Rail Management
                     Information System data.

                  2. 2. Monitor and provide feedback to facilities that do not
                     consistently meet Headquarters' expectations for on-
                     time entry of Rail Management Information System data.

                  3. 3. Establish confirmation procedures for facilities that
                     do not have full access to the Rail Management
                     Information System to ensure that data on trailer activity
                     is received and entered by the Bulk Mail Centers.

                  4. 4. Implement standard data verification practices as close as
                     possible to the time of entry of Rail Management Information
                     System data.

                  5. 5. Verify FYs 1998 and 1999 detention charges and submit
                     the appropriate adjustments to the St. Louis Accounting
                     Service Center for payment corrections.




Management’s      Management concurred with our findings and recommendations,
Comments          and indicated they would:

                  •   • Establish milestones and action plans for monitoring
                      progress toward achieving on-time targets for entry of Rail
                      Management Information System data;
                  •   • Work with the Distribution Networks Offices to monitor
                      compliance and provide feedback to facilities on the
                      timeliness of data entry;
                  •   • Reissue and monitor confirmation procedures to ensure
                      Rail Management Information System data has been entered
                      for those facilities who do not have data entry capability;
                  •   • Pursue a software package to improve the quality of Rail
                      Management Information System data and direct employees to
                    verify manual data entry against source documents; and
                •   • Review detention charges for FYs 1998 and 1999, submit
                    appropriate adjustments, and establish a standardized approach
                    for verifying detention charges.

Evaluation of   The corrective actions management has identified are responsive
Management’s    to our recommendations and should provide the quality of data
Comments        USPS needs to more effectively manage rail detention costs.
Significant Factors               We identified several facility practices that contributed to more
Contributing To Rail              than doubling of detention and misuse costs since 1995. These
Detention                         practices included the:

                                   •    • Inappropriate use of rail trailers to augment highway
                                        trailer fleets and to store mail transport equipment,
                                   •    • Inadequate tracking of trailer location,
                                   •    • Unavailability of information on trailer detention status
                                        for dispatch decisions, and
                                   •    • Failure to consistently seek reimbursement for detention
                                        caused by mailers.

Use of Rail Trailers              In two areas10[10] we visited, facilities inappropriately used rail
                                  trailers to augment their fleets of USPS trailers. Instead of
                                  returning rail trailers to carriers, facilities used them to transport
                                  mail between USPS facilities. Our audit further disclosed that
                                  Bulk Mail Centers were primarily responsible for this practice and
                                  had dispatched trailers to facilities that were already in detention
                                  status. This practice resulted in the detention of trailers
                                  significantly beyond the contractual grace periods.

                                  Transportation managers at the Bulk Mail Centers indicated they
                                  use rail trailers to move mail among nearby facilities because they
                                  lack a sufficient supply of USPS-owned or leased highway trailers
                                  to move the mail. While we could not determine whether there
                                  was a shortage of trailer fleet in the two areas, we noted that 11
                                  percent11[11] of the trailers in one area12[12] had not been used for a
                                  seven-week period, indicating that the current fleet was possibly
                                  underutilized. However, we also could not readily determine the
                                  reasons for the inactivity and whether 11 percent was a significant
                                  volume of trailers to have out of service.

                                  We also observed that rail trailers were being used to store
                                  mail transport equipment at facilities in four13[13] of five areas
                                  visited. When asked why trailers were being used for
                                  storage, facility managers indicated their facilities lacked
                                  storage space and/or that Mail Transport Equipment Service
                                  Centers were unable to accommodate excess equipment.
                                  Additionally, the Chicago Bulk Mail Center in the Great
                                  Lakes area had been receiving large volumes of excess

10[10]
       New York Metro Area and the San Francisco Bulk Mail Center service area of Pacific Area.
11[11]
       Eleven percent represents 51 of 464 trailers we sampled.
12[12]
       New York Metro Area.
13[13]
       We observed mail transport equipment being stored on rail trailers in the Allegheny, Great Lakes, New York
Metro, and Pacific areas.
                                     mail transport equipment mixed with mail shipments from
                                     east coast facilities, creating storage issues for the area.
                                     Although the Distribution Networks Office Manager for the
                                     Great Lakes Area discussed this issue with the responsible
                                     facilities, he was not successful in stopping shipments of
                                     excess equipment to the Chicago Bulk Mail Center.

Tracking of Trailer                  Another factor contributing to detention in four14[14] of the
Location                             five areas was the improper tracking of trailers. Changes in
                                     trailer location were not always recorded in the Rail
                                     Management Information System. Also, trailers were
                                     dispatched to mailer facilities that were not assigned system
                                     location codes. While facility managers told us location
                                     codes had not been established for all mailers, we learned
                                     that they could be established upon request by the facility.

Availability of                      Dispatch discipline at facilities in the five areas was not adequate
Information for Dispatch             to ensure that the trailers were returned expeditiously.
Decisions                            Specifically, individuals making dispatch decisions often did not
                                     have information on the detention status of trailers to determine
                                     the order in which trailers needed to be dispatched to avoid
                                     detention. Detention status information resides in the Rail
                                     Management Information System, which is not accessible to all
                                     facilities that receive rail trailers. For example, in making
                                     dispatch decisions, dock personnel at the Philadelphia Processing
                                     and Distribution Center only had access to manual log books and
                                     to yard inventory reports, which do not indicate the detention
                                     status of trailers. Our audit also revealed that facilities that had
                                     access to detention status information from the Rail Management
                                     Information System or other data systems did not always share
                                     this information with dock personnel who dispatched the trailers.
                                     Without information on the detention status of trailers, it is
                                     difficult to manage trailer inventory in a way that will minimize
                                     detention costs.


Reimbursement for                    USPS is not consistently seeking reimbursement from
Mailer-Caused                        mailers who detain rail trailers, causing USPS to incur
Detention                            detention. According to the Domestic Mail Manual,
                                     customers must reimburse the USPS for detention charges
                                     when the customer detains trailers furnished by the USPS.
                                     Transportation managers interviewed explained that
                                     reimbursement is not pursued for fear of losing customers.
                                     Also, the absence of location codes in the Rail Management
                                     Information System for many mailer facilities makes it

14[14]
         Allegheny, Great Lakes, New York Metro, and Pacific Areas.
                  difficult to assess the amount of mailer detention.

                  Although the lack of location codes makes it difficult to
                  accurately determine the amount of mailer-caused
                  detention, we believe pursuing reimbursement for such
                  costs could considerably reduce overall expenditures. For
                  example, one mailer in the Allegheny area incurs
                  approximately $300,000 per year in detention that is not
                  paid back to USPS. The facility transportation manager told
                  us that when he attempted to bill the customer, his action
                  was intercepted by an area official who believed that
                  seeking reimbursement would negatively impact customer
                  relations.

                  If facilities properly use rail trailers, track their movement, and
                  consistently seek reimbursement from mailers, USPS can
                  substantially reduce or possibly eliminate detention and misuse
                  costs, which were over $11 million in FY 1998.

USPS Corrective   On March 25, 1999, the Vice President, Network Operations
Actions           Management issued a directive in response to a briefing that we
                  gave on issues identified in this report. This directive instructed
                  Vice Presidents, Area Operations to:

                  •   • Enter data in the Rail Management Information System.
                  •   • Take daily inventory and identify oldest rail equipment.
                  •   • Return excess mail transport equipment held for
                      contingencies or emergencies to the mail transport equipment
                      warehouse for storage.
                  •   • Lease trailers or identify trailers needed to supplement
                      plant storage capacity.
                  •   • Never use rail equipment to supplement fleet shortages.



Recommendations   The Chief Operating Officer, in coordination with the Vice
                  President, Network Operations Management, should:

                  6. 6. Require Vice Presidents, Area Operations to report steps
                     taken in response to the March 25, 1999, directive issued by
                     the Vice President, Network Operations Management, and
                     provide interim progress reports.

                  7. 7. Instruct the Executive Director of the Mail Transport
                     Equipment Service Center Program to investigate the
                     unloading of excess mail transport equipment on the Chicago
                    Bulk Mail Center and recommend corrective actions, as
                    needed.

                8. 8. Emphasize with all field managers their role in ensuring
                   the proper use of mail transport equipment.

                9. 9. Instruct Vice Presidents, Area Operations to require that
                   facilities obtain location codes in the Rail Management
                   Information System for all mailer facilities to facilitate
                   tracking and movement of trailers.

                10. 10. Instruct Vice Presidents, Area Operations, to identify, to
                    the extent practical, mailer-caused detention, seek
                    reimbursement for such detention, and report amounts
                    recovered.

Management’s    Management agreed with our findings and recommendations.
Comments        They indicated they would:

                •   • Ensure all area offices develop standard operating
                    procedures in accordance with the Vice President's March 25,
                    1999 directive, and report progress until all required actions
                    have been implemented;
                •   • Reinforce with managers their responsibility to effectively
                    manage mail transport equipment;
                •   • Ensure all facilities, including appropriate mailer facilities,
                    have assigned location codes; and
                •   • Direct Area Vice Presidents to seek reimbursement of
                    detention costs from customers, as appropriate.

                In responding to recommendation 7, management indicated it
                followed up with the Great Lakes area and that the Chicago Bulk
                Mail Center is no longer receiving excess mail
                transport equipment. Further, the national implementation of the
                Mail Transport Equipment Service Center program should resolve
                equipment problems at all Bulk Mail Centers. Also, prior to the
                release of this audit report, USPS eliminated all funding for rail
                detention for FY 2000, effectively making the goal for that year
                zero.

Evaluation of   The corrective actions implemented or planned by management
Management’s    address the recommendations made in this report and should
Comments        substantially reduce or possibly eliminate rail detention costs.
                     SAMPLING PLAN AND PROJECTED RESULTS


Purpose of the Sampling

The sampling objective was to determine if the New York Metro Area and the San Francisco
Bulk Mail Center/Oakland Processing and Distribution Center facilities are utilizing their current
stock of trailers effectively.

Definition of the Audit Universe and Samples Drawn

At the time of the audit, the New York Metro Area population of trailers was determined to be
3,041 from which a sample of 464 was chosen at random. In the San Francisco/Oakland area,
the population of trailers was determined to be 571 from which a sample of 279 was chosen at
random.

Sample Design

Both samples were drawn using a simple random sampling methodology. In the New York
Metro Area and in the San Francisco Oakland Area, auditors expected a non-usage rate of about
35 percent and desired to estimate the true result within ±4 percent and with 95 percent
confidence.

Projected Results

1. 1. From sample #1, New York Metro Area:
   • • Proportion of trailers with no activity: 10.99 percent
   • • Bound on estimate using 95 percent confidence: ±2.36 percent

   Therefore, with 95 percent confidence we project that

   •   •   between 8.36 percent and 13.62 percent of the trailers, or
   •   •   between 254 and 414 trailers

   had no activity during the period audited.

2. 2. From sample #2, San Francisco/Oakland Area:
   • • Proportion of trailers with no activity: 63.08 percent
   • • Bound on estimate using 95 percent confidence: ±4.05 percent

   However, the Transportation Manager of the Oakland Processing and Distribution
   Center advised that trailer movement is often not recorded. Therefore, we do not
   consider the results for the San Francisco Bulk Mail Center/Oakland Processing and
   Distribution Center reliable and make no conclusions from our sample results.
Major Contributors to   Sherry Hilderbrand
This Report             Michelle Lindquist
                        Debra Ritt
                        Wayne Sharpe
                        A. Michael Stevens
